HHS/OIG, Audit - "Impact of Not Retroactively Adjusting Outpatient
Outlier Payments," (A-07-06-04059)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Impact
of Not Retroactively Adjusting Outpatient Outlier Payments," (A-07-06-04059)
June 19, 2007
Complete
Text of Report is available in PDF format (887 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this report was to assess the impact that
the Centers for Medicare and Medicaid Services's (CMS) practice of not retroactively adjusting outpatient outlier payments has on
the integrity of the outpatient outlier program.  In a series of reviews, we
identified significant outpatient outlier overpayments to community mental
health centers (CMHC).
CMSs practice of not retroactively adjusting outpatient
outlier payments creates significant vulnerabilities in the outpatient outlier
program.  The practice is also inconsistent with CMSs policy of retroactively
adjusting inpatient prospective payment system (PPS) outlier payments.  Prior
audits showed that some CMHCs received significant outpatient outlier
overpayments as a result of fiscal intermediaries and CMHCs mathematical and
clerical errors and CMHCs manipulation of charge data to their advantage.
Other CMHCs received underpayments as a result of fiscal intermediaries
errors.  Following its current practice, CMS did not adjust these erroneous
payments, resulting in substantial net losses to the Medicare trust fund and
payment inequities among CMHCs.  CMSs practice also does not allow for
retroactive adjustments when a fiscal intermediarys final cost report
settlement identifies errors that caused previous erroneous outlier payments.
Although our work was specific to CMHCs, similar vulnerabilities may exist in
the entire outpatient outlier program.
We
recommended
that CMS issue regulations to require retroactive adjustments of outpatient
outlier payments within appropriately established thresholds.  Specifically, we
recommend that CMS require (1) adjustments of outpatient outlier payments at
final cost report settlement, retroactive to the beginning of the cost report
period, and (2) retroactive adjustments of outpatient outlier payments when an
error caused by the fiscal intermediary or provider is identified after the cost
report is settled.  In written comments, CMS stated that it would explore the
feasibility and cost effectiveness of implementing our recommendations.